U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                 United States Patent and
                       Trademark Office


     Stronger Management Controls Needed

     For the Patent Application Capture and

      Review Automated Information System


                      Final Report No. OSE-14926/August 2002


                         PUBLIC
                         RELEASE

                             Office of Systems Evaluation
                                              f...T OF Co

                                      ~",YI' ~#          ""i.
                                                            ~




                                     ~~;
                                      CXJ
                                      :.:.~
                                              ~~7"ES
                                                   if'
                                                         ..,;;
                                                                 UNITED STATES DEPARTMENT
                                                                 The Inspector    General
                                                                 Washington. D.C.20230
                                                                                            OF COMMERCE




                                                                                  AUG2 2 2002
MEMORANDUM FOR:	              Nicholas P. Godici
                              Commissioner for Patents
                              United States Patent and Trademark Office

                              Douglas J. Bourgeois
                              Chief Information Officer
                              United States Patent and Trademark Office


FROM:	                        Johnnie E. F                              .   ~       <­

SUBJECT:	                     Stronger Mana~vi ~~:ontroLs NeededfO~PPlication
                              Capture and R:tZv~utomated Information System
                              Final Inspection Report No. OSE-14926

This is the final report on our assessment of information security controls for the United States
Patent and Trademark Office's (USPTO's) Patent Application Capture and Review (PACR)
Automated Information System. PACR captures, stores, and maintains digital images of U.S.
patent applications, and retrieves and prints these documents as needed. USPTO relies on the
highly sensitive PACR system for day-to-day operations.

Our evaluation concluded that physical security measures in place during our assessment
generally provide appropriate protection for PACR equipment. We further determined, however,
that a risk assessment has not been conducted, the security plan is not approved, security controls
have not been tested and reviewed, contingency planning is needed, and specialized security
training is needed.

Under the Government Information Security Reform Act, information security is the
responsibility of federal agency senior management-the agency head, senior managers, and the
chief information officer (CIO). The agency head has overall responsibility for ensuring the
security of information and information systems supporting agency operations and assets, and
senior officials are responsible for the information security of the systems that support their
mission. Thus, the Commissioner for Patents is responsible for PACR information security. The
agency CIO is required to administer the information security program agency wide, including
assisting senior agency officials concerning their responsibilities.

In your written response to our draft report, you agreed with all our recommendations and
described corrective actions being taken or planned. The complete response is included as an
attachment to this report and constitutes the action plan. We appreciate the cooperation and
courtesies extended to us by USPTO in conducting our review.

Attachment

cc:	   James Rogan, Under Secretary of Commerce For Intellectual Property and Director ofthe
         United States Patent and Trademark Office
U.S. Department of Commerce                                             Final Inspection Report OSE-14926

Office of Inspector General                                                                   August 2002


                                             INTRODUCTION 


The Government Information Security Reform Act (GISRA) requires all federal agencies to
perform annual reviews of their information security programs and requires the Office of
Inspector General (OIG) for each agency to conduct independent evaluations of those programs.
As part of our effort to fulfill this requirement, in March 2002 we issued a report, Additional
Senior Management Attention Needed To Strengthen USPTO’s Information Security Program1,
which evaluated the United States Patent and Trademark Office’s (USPTO’s) information
security policies and procedures, roles and responsibilities, and adherence to applicable laws,
regulations, and guidance.

GISRA requires each agency’s OIG to also conduct reviews of security controls for individual
systems. To help fulfill this requirement and as a follow-on effort to our earlier USPTO
entitywide review, we chose to evaluate security controls for USPTO’s Patent Application
Capture and Review (PACR) system because PACR is a highly sensitive system necessary to
USPTO’s daily operations.


                                              BACKGROUND

PACR provides the capture, storage, maintenance, retrieval, and printing of digital images of
U.S. patent applications. PACR relies on USPTO’s local area network (LAN), PTONet, to
support data processing associated with patent applications. At the time we selected PACR for
review, version 3.0 was the operational system. At our entrance conference with USPTO on
January 29, 2002, USPTO informed us that the Cylink Secure Domain Units used to encrypt
patent application data transmitted on PTONet had been replaced by Redbrook Ravlin encryption
devices. The transition from the Cylink to the Ravlin devices had been planned as part of the
upgrade to PACR version 3.5, scheduled for deployment in March 2002. The deployment
occurred in March as anticipated, and PACR version 3.5 included the transition to the Ravlin
devices as well as additional enhancements. In May 2002, USPTO began transitioning PACR
from PTONet to PTONet II, the upgraded USPTO-wide LAN.

In response to our earlier report, USPTO initiated a contractor-supported certification and
accreditation2 (C&A) pilot project for five of its critical systems. USPTO identified PACR as
one of those systems after we began our evaluation. For each of the systems, the C&A pilot
project will provide the following:

    •   risk assessment,
    •   updated security plan,
    •   vulnerability assessment,
    •   business continuity plan,

1
  Office of Inspector General. 2002. Additional Senior Management Attention Needed To Strengthen USPTO’s
Information Security Program, Final Inspection Report No. OSE-14816/March 2002. Washington, DC: Office of
Inspector General U.S. Department of Commerce.
2
  Certification is the formal testing of the security safeguards implemented in a computer system to determine
whether they meet applicable requirements and specifications. Accreditation is the formal authorization by
management for system operation, including an explicit acceptance of risk.
                                                        2

U.S. Department of Commerce                                             Final Inspection Report OSE-14926

Office of Inspector General                                                                   August 2002


    •   security test and evaluation (ST&E) plan, and
    •   certification and accreditation package.


                          OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our evaluation was to conduct an independent assessment of the implementation
of information security controls for PACR. We used NIST’s Security Self-Assessment Guide for
Information Technology Systems,3 as the basis for evaluating controls in three categories:
management, operational, and technical. Because of resource and time constraints, we selected a
subset of these controls for evaluation. Table 1 identifies the controls we chose to assess. We
further reduced the set by eliminating technical controls because USPTO was unable to provide
accurate, consistent information about the system and to avoid duplication of effort, since the
pilot project will evaluate technical controls for PACR.

Table 1          Security Controls Selected for Assessing PACR

Control Category                                Control                             Selected
                        Risk Management                                                X
                        Review of Security Controls                                    X
Management              Life Cycle                                                     X
                        Authorize Processing                                           X
                        System Security Plan                                           X
                        Personnel Security
                        Physical Security                                               X
                        Production, Input/Output Controls
                        Contingency Planning                                            X
Operational             Hardware and Systems Software Maintenance
                        Data Integrity
                        Documentation
                        Security Awareness, Training, and Education                     X
                        Incident Response Capability
                        Identification and Authentication                               X
Technical               Logical Access Controls                                         X
                        Audit Trails                                                    X


During our evaluation, we reviewed PACR system documentation, conducted interviews with
USPTO personnel and managers involved in PACR development and information security, and
visited USPTO facilities where equipment to support PACR operations is located.




3
 National Institute of Standards and Technology. 2001. Security Self-Assessment Guide for Information Technology
Systems, NIST Special Publication 800-26. Gaithersburg, MD: National Institute of Standards and Technology.

                                                       3

U.S. Department of Commerce                                    Final Inspection Report OSE-14926
Office of Inspector General                                                          August 2002

USPTO is already implementing the recommendations from our March 2002 review, which
should address many of the problems found in this current review. For those concerns currently
being addressed, we make no new recommendations.

Our evaluation was conducted in accordance with the Quality Standards for Inspections issued
by the President’s Council on Integrity and Efficiency and was performed under the authority of
the Inspector General Act of 1978, as amended, and Department Organization Order 10-13,
dated May 22, 1980, as amended. Our fieldwork was conducted from January through May
2002.


                          FINDINGS AND RECOMMENDATIONS

We found that physical security measures in place during our evaluation provide appropriate
protection for equipment that PACR relies on to support USPTO operations. Our review further
determined, however, that (1) management controls are not implemented and that both (2)
contingency planning and (3) specialized security training are needed.

I.     Physical Security Measures Are Generally Appropriate

The PACR servers that store images of patent applications, as well as the firewall that affords
protection from unauthorized access to the servers, are located in a secure data center. Access to
the data center is controlled by a personnel badge reader and an electronic key card reader.
USPTO’s Office of Information System Security effectively controls activation and deactivation
of the badges and key cards. In addition, security personnel are on duty inside the data center 24
hours per day, 7 days per week. Visitors must be authorized access and must display proper
identification while in the center, where they are escorted at all times. As an added control,
surveillance cameras continuously monitor the database server and surrounding areas.

The scanning servers that create the patent application images are located in a building separate
from the building that houses the secure data center. These servers are located in a secure room
whose access is controlled by a cipher lock. Visitor access is controlled by a system
administrator, who also monitors the operational status of the servers.

We noted during our evaluation that the cipher combination to the room is not changed after
employees and contractors who have been given the combination terminate employment or
contractual obligations with USPTO. In response to our concern, USPTO is developing an
agency-wide policy for changing cipher combinations.

Further, USPTO plans to move the scanning servers from the secure room to the secure data
center where the remaining servers and the firewall are housed.




                                                4

U.S. Department of Commerce                                     Final Inspection Report OSE-14926
Office of Inspector General                                                           August 2002

Recommendation

We recommend that the Commissioner for Patents and the USPTO Chief Information Officer
ensure that the agency establishes and implements a policy requiring that cipher combinations be
changed (1) when employees and contractors who have the combinations depart USPTO service
or no longer require access and (2) on a periodic basis.

II.      Management Controls Are Not Implemented

Management controls focus on the management of the information technology security aspects
of a system and the management of risk. For PACR, we found that management controls are not
fully implemented for the following reasons:

•     a risk assessment has not been conducted,
•     the security plan is not approved,
•     the operational system has not been accredited,
•     security controls have not been tested and reviewed periodically, and
•     life cycle management deficiencies exist.

A.       Risk Assessment of PACR Has Not Been Conducted

A current risk assessment for a system is the foundation of a risk-based approach to information
security because it is designed to identify threats and vulnerabilities so appropriate security
measures can be implemented. GISRA requires program officials to determine and assess risks
to the operations and assets they control, and OMB Circular A-130, Management of Federal
Information Resources, requires agencies to use a risk-based approach to determine adequate
security measures.

No risk assessment has been performed for any version of PACR; therefore, it is not possible to
determine whether security measures are adequate to deal with existing threats and
vulnerabilities. USPTO recognized this deficiency and tasked a contractor to conduct a risk
assessment for the operational PACR system as part of the ongoing C&A pilot project.

B.       Security Plan Is Not Approved

The Computer Security Act of 1987 requires that security plans be developed for all federal
computer systems that contain sensitive information. A system security plan provides an
overview of system security requirements and describes the controls in place or planned for
meeting those requirements. It also delineates responsibilities and expected behavior of all
individuals who access the system. Since the plan establishes the security controls, it should
logically form the basis for accreditation of the system. The security plan should be reviewed
annually and revised as needed to ensure that security controls can handle significant changes to
the system and address rapidly changing threats.

At USPTO, the project manager is responsible for preparing and maintaining the information
system security plan throughout the system’s life cycle, with assistance from the information
system security officer (ISSO).

                                                  5

U.S. Department of Commerce                                             Final Inspection Report OSE-14926
Office of Inspector General                                                                   August 2002

Although security plans have been developed for PACR, USPTO was unable to provide official
sign-off or approval pages or documented Technical Review Board4 action to indicate that any of
these plans have been officially approved. Hence, PACR lacks a critical component—an
approved security plan—needed for accreditation. The most recent PACR security plan will be
updated during the ongoing pilot project.

C.      Security Controls Have Not Been Periodically Tested and Reviewed

OMB Circular A-130 requires that agencies perform a formal management review of security
controls at least every 3 years. Such reviews should also be conducted when significant changes
are made to a system. Reviews should include an independent assessment of security controls
and can include network scans, analysis of network device settings, and penetration testing.
Testing and reviewing security controls are critical factors for system accreditation.

Testing of security controls for PACR has not been performed. USPTO has tasked a contractor
to conduct a vulnerability assessment for the operational PACR system as part of the pilot
project. As part of the vulnerability assessment, the contractor will use a detailed questionnaire
to assess the effectiveness of management, operational, and technical controls and will use a
network scanner (CyberCop) provided by USPTO to determine the effectiveness of controls
against known vulnerabilities. If this assessment is comprehensive and thorough, it should
adequately test PACR security controls.

In response to our previous evaluation, USPTO is putting a process in place to periodically test
and review security controls related to each system.

D.      System Has Not Been Accredited

OMB Circular A-130 requires management officials to formally authorize the use of a system
before it becomes operational and re-accredit the system whenever a significant change is made
or at least every 3 years. By authorizing processing, a management official acknowledges an
understanding and acceptance of the risks associated with putting the system into operation.

No version of PACR has been accredited as yet; however, USPTO and contractor personnel are
preparing certification and accreditation materials, which will lead to accreditation of PACR, as
part of the C&A pilot project.




4
  The Technical Review Board conducts reviews of work products and plans during the life cycle of an automated
information system.
                                                       6

U.S. Department of Commerce                                                  Final Inspection Report OSE-14926
Office of Inspector General                                                                        August 2002

E.         Life Cycle Management Deficiencies Found

Security Considerations of System Design Changes Are Not Well Planned

USPTO is currently making the transition from its local area network (LAN), PTONet, to
PTONet II, a more capable LAN based on current network technology. The LAN allows
USPTO users to communicate with servers, send and receive e-mail, execute applications, search
for information, and support business processes. Because USPTO’s LAN supports processing
associated with patent applications, the transition will require changes to PACR network
components and related software.

USPTO’s PTONet II Production Installation Plan states that the transition for systems such as
PACR would be planned well in advance, and meetings would be conducted with system
development managers, other USPTO officials, and contractor managers responsible for PTONet
II installation. These meetings were to address such issues as changing internet protocol
addresses5 for PACR network components to accommodate PTONet II. However, PACR system
design changes to accommodate PTONet II do not appear to have been well planned, nor did
they adequately consider network security implications. We reached these conclusions because,
just prior to the initial transition step for PACR, USPTO was unable to identify required software
changes and necessary modifications and additions to firewall rules. Furthermore, the ISSO was
unaware that these changes were about to be made, even though the Office of Information
System Security, which is under the direction of the ISSO, is responsible for reviewing and
authorizing proposed firewall changes.

Draft procedures for implementing PACR network and firewall changes were issued after initial
transition attempts failed. Since the completion of our fieldwork, the transition of PACR to
PTONet II was successfully completed.

USPTO needs to better plan and coordinate information technology changes that affect security
aspects of interconnected systems.

Documentation Does Not Reflect Current System

System documentation should be current and accurate to support testing, training, modification,
and maintenance activities. The quality and utility of supporting documentation can be
considered a primary measure of the health and well-being of a software project.6

To understand the network and security architecture of PACR, we reviewed available system
documentation and attended briefings provided by USPTO. (As noted previously, USPTO had
no record of an approved information security plan for PACR.) We found that:

•	     available documentation does not reflect the current system;
•	     network topology diagrams, four in all, have the same issuing date but each differs from the
       others and none accurately describes the then-current or planned topology; and


5
    An internet protocol (IP) address identifies a specific computer or device on a network.
6
    Fairley, R. 1985. Software Engineering Concepts. New York: McGraw-Hill , p. 220.
                                                            7

U.S. Department of Commerce                                          Final Inspection Report OSE-14926
Office of Inspector General                                                                August 2002

•	     for the High-level Architecture document and Operational Support Plan, discrepancies exist
       between their network topology diagrams, equipment lists, and points of contact.

USPTO needs to improve its process for keeping documentation current and tracking its status.

Recommendations

We recommend that the Commissioner for Patents and the USPTO Chief Information Officer
make certain that agency managers ensure that:

1.        PACR system documentation is updated to reflect the current operational system, and

2.        a process to track document approval is established and enforced.

III.      Contingency Planning Is Needed

OMB Circular A-130 states that managers should develop plans for how they will perform their
mission and recover from the loss of system support. The circular also notes that testing a
contingency plan significantly improves its viability, and plans that have not been tested, or have
not been tested recently, may mask an agency’s ability to recover in a timely manner.

PACR has no contingency plan, but USPTO is developing a Business Continuity Plan as part of
the ongoing C&A pilot project.

IV.       Specialized Security Training Is Needed

GISRA requires chief information officers to ensure the training of personnel who have
significant responsibilities for information security. However, PACR system administrators have
not received specialized security training. USPTO has agreed with our earlier recommendation
to develop a comprehensive information security training and education program based on job
functions, roles, and responsibilities using NIST Special Publication 800-16.7 Thus, PACR
system administrators should receive specialized training as this program is implemented.




7
 Information Technology Laboratory. 1998. Information Technology Security Training Requirements: A Role- and
Performance-Based Model. Gaithersburg, MD: U.S. Department of Commerce National Institute of Standards and
Technology.
                                                      8

